OFFICE OF INSPECTOR GENERAL

AUDIT OF THE INTER-
AMERICAN FOUNDATION’S
COMPLIANCE WITH THE
FEDERAL INFORMATION
SECURITY MANAGEMENT ACT
OF 2002 FOR FISCAL YEAR 2014
AUDIT REPORT NO. A-IAF-14-009-P
SEPTEMBER 19, 2014



WASHINGTON, D.C.
This is a summary of our report on the “Audit of the Inter-American Foundation’s Compliance
With the Federal Information Security Management Act of 2002 for Fiscal Year 2014” (No. A-
IAF-14-009). The Federal Information Security Management Act of 2002 (FISMA) requires
agencies to develop, document, and implement an agency-wide information security program to
protect their information and information systems, including those provided or managed by
another agency, contractor, or other source. The act also requires agencies to have an annual
assessment of their information systems.

The Office of Inspector General (OIG) contracted with the independent certified public
accounting firm of CliftonLarsonAllen LLP to conduct the audit. Clifton was required to conduct
the audit in accordance with U.S. Government auditing standards. The objective was to
determine whether the Inter-American Foundation (IAF) implemented selected minimum
security controls for selected information systems in support of FISMA.

To answer the audit objective, Clifton assessed whether IAF implemented selected
management, technical, and operational controls outlined in National Institute of Standards and
Technology Special Publication 800-53, Recommended Security Controls for Federal
Information Systems and Organizations, Revision 3. Clifton performed audit fieldwork at IAF’s
headquarters in Washington, D.C., from March 25 through July 14, 2014.

The audit concluded that IAF implemented 77 of 85 tested security controls in support of
FISMA. For example, IAF did the following.

   Established adequate information technology security policies and procedures related to
    access controls, awareness and training, audit and accountability, security assessment and
    authorization, and personnel security.

   Implemented effective account management procedures.

   Maintained adequate control over physical access to facilities and the computer room.

   Established adequate processing procedures for bringing on new employees and for
    employees leaving the organization.

Based on Clifton’s report, OIG made five recommendations to help IAF strengthen its
information security program. OIG acknowledged IAF’s management decisions on each of those
recommendations.
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
